Chris Jaye
PO Box 5015
Clinton, NJ 08809
caj @okvnews. com
Date: January 21, 2021
Chris Ann Jaye
Petitioner

The Supreme Court of the United States
Docket

v.
US AG Barr, et. al.
Respondents

Proof of Service

I, Chris Ann Jaye, certify that today, January 21, 2021,1 sent the forty booklets, a word count
certification, a PDF printed copy and a $300 filing fee (check) by tracked mail. Defendants will be
served by ECF through my US District Court of Iowa, Northern District filing.
s/ Chris Ann Jaye
Chris Ann Jaye
Petitioner (Plaintiff)
Pro se
cc: 40 Booklets, PDF version, word court and $300 filing fee by tracked mail
cc: Filed with Northern District of Iowa

1

